Appendix to
Petition for Writ of Certiorari

USCA4 Appeal: 20-4407

Doc: 23

Filed: 04/08/2021

Pg: 1 of 4

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-4407
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
MILLARD JEROME STRICKLAND, JR.,
Defendant - Appellant.

Appeal from the United States District Court for the District of South Carolina, at
Anderson. Donald C. Coggins, Jr., District Judge. (8:18-cr-00855-DCC-1)
Submitted: March 29, 2021

Decided: April 8, 2021

Before GREGORY, Chief Judge, and NIEMEYER and MOTZ, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Howard W. Anderson, III, LAW OFFICE OF HOWARD W. ANDERSON III, LLC,
Pendleton, South Carolina, for Appellant. Peter M. McCoy, Jr., United States Attorney,
Robert F. Daley, Jr., Assistant United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Columbia, South Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

App. 1 of 7

USCA4 Appeal: 20-4407

Doc: 23

Filed: 04/08/2021

Pg: 2 of 4

PER CURIAM:
Millard Jerome Strickland, Jr., pled guilty, without a plea agreement, to being a
felon in possession of a firearm, in violation of 18 U.S.C. § 922(g), and possession with
intent to distribute 50 grams or more of methamphetamine, in violation of 21 U.S.C.
§ 841(a)(1). Based on a total offense level of 31 and a criminal history category of VI,
Strickland faced an advisory Sentencing Guidelines range of 188 to 235 months’
imprisonment. The district court granted Strickland’s motion for a variance and sentenced
him to a below-Guidelines term of 168 months’ imprisonment. Strickland noted a timely
appeal, challenging the reasonableness of his sentence.
We review a defendant’s sentence “under a deferential abuse-of-discretion
standard.” Gall v. United States, 552 U.S. 38, 41 (2007). Under the Gall standard, a
sentence is reviewed for both procedural and substantive reasonableness. Id. at 51. In
determining procedural reasonableness, we consider whether the district court properly
calculated the defendant’s advisory Guidelines range, gave the parties an opportunity to
argue for an appropriate sentence, considered the 18 U.S.C. § 3553(a) factors, and
sufficiently explained the selected sentence. Id. at 49-51. Procedural errors include failing
to adequately explain the sentence. United States v. Provance, 944 F.3d 213, 218 (4th Cir.
2019). *
Strickland first argues that the district court failed to consider his arguments for a
lower sentence based on his increased risk of serious illness from COVID-19 due to his

*

Strickland does not challenge the substantive reasonableness of his sentence.
2

App. 2 of 7

USCA4 Appeal: 20-4407

Doc: 23

Filed: 04/08/2021

Pg: 3 of 4

obesity and race (Black). At sentencing, a district court must “set forth enough to satisfy
the appellate court that it has considered the parties’ arguments and has a reasoned basis
for exercising its own legal decisionmaking authority.” United States v. Lozano, 962 F.3d
773, 782 (4th Cir. 2020) (alterations and internal quotation marks omitted). “It is
sometimes possible to discern a sentencing court’s rationale when an explanation is
lacking.” United States v. Lewis, 958 F.3d 240, 243 (4th Cir. 2020) (alteration and internal
quotation marks omitted). Moreover, where a court has fully addressed the defendant’s
“central thesis” in mitigation, it need not “address separately each supporting data point
marshalled on its behalf.” United States v. Nance, 957 F.3d 204, 214 (4th Cir. 2020). Our
review of the record discloses that the district court appropriately took into account
Strickland’s arguments for a variance, including the pandemic, in arriving at the belowGuidelines sentence imposed.
Next, Strickland claims that the district court improperly relied on facts surrounding
a prior assault conviction. We find that the court appropriately considered the conviction,
discussing it in the context of his entire criminal history—a history that placed him in
criminal history category VI even without application of the career offender enhancement.
Finally, Strickland argues that his state drug convictions should not have been
counted as “controlled substance offenses” for purposes of the career offender
enhancement because the state definition of marijuana is broader than the federal
definition. However, Strickland concedes—correctly—that this argument is foreclosed by
circuit precedent. See United States v. Mills, 485 F.3d 219, 222 (4th Cir. 2007) (holding
that a state-law conviction involving a substance controlled under state, but not federal,
3

App. 3 of 7

USCA4 Appeal: 20-4407

Doc: 23

Filed: 04/08/2021

Pg: 4 of 4

law still qualifies as a “controlled substance offense” within the meaning of the Sentencing
Guidelines).
Therefore, we affirm Strickland’s sentence. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

4

App. 4 of 7

UNITED STATES DISTRICT COURT
FOR THE
DISTRICT OF SOUTH CAROLINA
SPARTANBURG DIVISION
* * * * * * * * * * * * * * *
UNITED STATES OF AMERICA,
*
*
Plaintiff,
*
*
vs.
*
*
MILLARD JEROME STRICKLAND, *
JR.
*
*
Defendant.
*
* * * * * * * * * * * * * * *
APPEARANCES:
For the Plaintiff:

CRIMINAL NO. 8:18-CR-0855
AUGUST 6, 2020 1:21 P.M.
SENTENCING HEARING
PAGES 1 - 41
Before:
HONORABLE DONALD C. COGGINS, JR.
UNITED STATES DISTRICT JUDGE
DISTRICT OF SOUTH CAROLINA

MAXWELL BARNES CAUTHEN, III, AUSA
United States Attorney's Office
District of South Carolina
55 Beattie Place, Suite 700
Greenville, SC 29601

For Defendant Millard Jerome Strickland, Jr.:
HOWARD WALTON ANDERSON, III, ESQUIRE
Howard W. Anderson, III Law Office
P.O. Box 661
Pendleton, SC 29670

Court Reporter:

Michele E. Becker, RMR, CRR, RPR
201 Magnolia Street
Spartanburg, SC 29306
(864) 905-8888

Proceedings recorded by mechanical stenography, transcript
produced by computer.

Michele Becker, RMR, CRR, RPR
US District Court
District of South Carolina

App. 5 of 7

[Prior Pages Omitted]

10

1

relevant one having anything to do with the calculation

2

overall might have been number 31, and that's been removed.

3

THE COURT:

All right.

I will note for the record

4

that paragraph 31 on page 11 of the report does reflect that

5

no criminal history point has been assessed for that, so I

6

believe that that change has been made.

7

believe that the report is appropriate and proper, and so I

8

would overrule that objection.

9

MR. ANDERSON:

With that change I

Thank you, Judge.

In paragraph or

10

objection 3, which carries through for several other of the

11

paragraphs of the PSR about what is a controlled substance

12

offense, Judge, I know that the probation office has found

13

some Fourth Circuit authority that seems inconsistent with

14

some of the authority from the other circuits.

15

purposes of the record, I would just say, Your Honor, that I

16

think that the law should be that unless it is established to

17

be a -- what would be a violation of the Federal Controlled

18

Substances Act, that it shouldn't count for a guidelines

19

purposes as some of the other Circuits have said.

20

appear that there's language in Mills that would seem to say

21

that that's an argument for another day and another place,

22

Judge.

23

THE COURT:

I agree, Mr. Anderson.

But for the

But it does

I think since we

24

are in the Fourth Circuit, that's the controlling law.

25

will note that not only is Mills controlling I believe with

Michele Becker, RMR, CRR, RPR
US District Court
District of South Carolina

App. 6 of 7

And I

11
1

respect to this objection, but there was also a denial of cert

2

on that case by the U.S. Supreme Court.

3

a promotion, I think we are pretty much required to follow the

4

law as it is, and I'll overrule that objection.

5

MR. ANDERSON:

So until you or I get

Thank you, Judge.

Judge, for

6

paragraph 4, I'll largely just stand on my objection as

7

written.

Essentially, I take issue with how the guideline is

8

phrased.

The first part before the parenthetical as i.e. the

9

defendant's arrested for the first offense prior to committing

10

the second offense, is somewhat intentioned with the use of

11

the words, "intervening arrest".

12

old, I guess, conduct that results in an arrest.

13

Judge, I'll just stand on the papers and say that I don't

14

think that it qualifies under the same day rule.

15

understand what the government is going to argue in response.

16

Thank you, Judge.

17

THE COURT:

18

MR. CAUTHEN:

And so here we have a very
And so,

I certainly

Mr. Cauthen.
Your Honor, I would rely on the

19

probation officer's response on page 3.

20

by an intervening arrest and therefore are counted separately.

21

Thank you.

22

THE COURT:

They are.

These are separated

And unfortunately this does

23

come up from time to time where we have multiple arrests.

24

because of court schedules, various offenses are handled at

25

various times.

But in this case I think it's pretty clear

Michele Becker, RMR, CRR, RPR
US District Court
District of South Carolina

App. 7 of 7

And

